\

STATE OF WEST VIRGINIA
SUPREME COURT OF APPEALS
Alex Rah®*,
Plaintiff Below, Petitioner

September 3, 2019
EOYTHS MASH GAISSR, CLERK
SUPREME COURT OF APPEALS
OF WEST VIRGINIA

vs) No. 18-0533 (Jefferson County 17.C-201)
pm & Pill, PLLC,
Defendant, Respondent

MEMORANDUM DECISION
Petitioner Alex Rahmi, pro se, appeals the May 17, 2018, order of the Circuit Court of
Jefferson County dismissing an action, in which he sought an injunction to prevent the completion
of the foreclosure sale of his residential property located at 638 Marlow Road, Charles Town. West
Virginia. Respondents Pill & Pill, PLLC (“Pill & Pill”), Bank of New York Mellon Trust
Company, National Association (ffk/a The Bank of New York Trust Company, N.A.) (“bank”),
and R & D Investments, LLC (“R & D”), by counsel J. Mark Sutton, Christopher A. Dawson, and
Abraham M. Ashton, filed a summary response in support of the circuit court’s order.
The Court has considered the parties’ briefs and the record on appeal. The facts and legal
arguments are adequately presented, and the decisional process would not be significantly aided
by oral argument. Upon consideration of the standard of review, the briefs, and the record
presented, the Court finds no substantial question oflaw and no prejudicial error. For these reasons,
a memorandum decision affirming the circuit court’s order is appropriate under Rule 21 of the
Rules of Appellate Procedure.
Petitioner’s residential property, located at 638 Marlow Road, Charles Town, West
Virginia, was sold at a foreclosure sale in August of 2017. Pill & Pill served as the trustee that sold
the property. The Bank was the holder of the deed of trust R & D purchased the property at the
foreclosure sale. Collectively, these entities will be referred to as “respondents.”
On February 21,2012, petitioner filed a bankruptcy action pursuant to Chapter 11 of the
United States Bankruptcy Code.1 On February 28, 2014, the bankruptcy trustee filed a motion
i

We take judicial notice of the record from petitioner’s bankruptcy in the United States
Bankruptcy Court of the Northern District of West Virginia, Case No. 12-bk-2QQ. We note that, in
ruling on a motion to dismiss, a court is permitted to “consider matters that are susceptible to
judicial notice.” See Forshey v. Jackson, 222 W- Va. 743, 747, 671 S.E.2d 748, 752 (2008)
(Internal quotations and citations omitted).
t

—K.

pursuant to 11 U.S.C. § 1112(b) to convert petitioner’s Chapter 11 bankruptcy into a Chapter 7
bankruptcy following petitioner’s settlement of a Canadian court action for approximately
$170,000 without court approval and his failure to adequately disclose and account for the
settlement proceeds. By order entered May 16,2014, the United States Bankruptcy Court of the
Northern District of West Virginia (“bankruptcy court”) granted the trustee’s motion and
converted petitioner’s bankruptcy into one under Chapter 7, The bankruptcy trustee subsequently
filed a motion for summary judgment on the trustee’s claim that petitioner should he denied a
discharge of his debts, and by order entered August 24, 2015, the bankruptcy court ruled that
petitioner’s debts would not be discharged, In denying petitioner a discharge, the bankruptcy court
found that he intentionally transferred and concealed tire settlement proceeds from the Canadian
action. See In Re Rahmi, 535 B.R. 655,661 (Bankr. NJ>. W.Va. 2015).
On September 2, 2015, the bank filed a motion to lift the bankruptcy stay so that a
foreclosure proceeding could proceed against petitioner’s residential property. By order entered
November 24,2015, the bankruptcy court found cause pursuant to 11 U.S.C, § 362(d)(l) for lifting
the stay, finding:
In this case, [petitioner}’s failure to perform under the contractual obligations of the
loan is for an exceedingly long period of time; that is to say, five years of non­
performance. Such a long and unmitigated failure to perform under the contract is
sufficient to constitute independent cause to lift the stay; especially in tire context
of a Chapter 7 case.
In its order, the bankruptcy court noted that tire bank filed the motion to lift the stay in “its capacity
as successor to JPMorgan Chase Bank, N.A., as Trustee for Residential Asset Mortgage Products,
Inc., [GMAC Mortgage} Loan Trust 20Q5-AR1.”
On August 15, 2017, Pill & Pill sold, and R & D purchased, petitioner’s property at a
foreclosure sale. On August 18,2017, petitioner filed a complaint against Pill & Pill in the Circuit
Court of Jefferson County, seeking an injunction to prevent the completion of the foreclosure sale
of his residential property “pending final resolution by [the] [b}ankruptcy [c]ourt[.}” By order
entered August 23, 2017, the bankruptcy court denied petitioner’s Rule 60(b) motion for relief
from the August 24,2015, order denying him a discharge of his debts.
On September 13, 2017, Pill & Pill filed an answer denying the allegations set forth in
petitioner’s complaint in tire instant action. Petitioner filed amended complaints on November 17,
2017, and April 11,2018.2 In his second amended complaint, petitioner sought compensation “for
2While not granting petitioner leave to amend his complaint, the circuit court considered
the allegations in the amended complaints in its May 17, 2018, order. We note that petitioner
included none of the parties’ pleadings in his appendix. Pursuant to Rule 6(b) of the West Virginia
Rules of Appellate Procedure, we hereby supplement the appellate record with the August 18,
2017, complaint; Pill & Pill’s September 13, 2017, answer; the November 17, 2017, amended
complaint; the bank’s March 29, 2018, motion to dismiss; and die April 11, 2018, amended
2

injuries and damages caused by [GMAC Mortgage}.” On January 31, 2018, die circuit court
granted motions to intervene in the action filed by the bank and R & D. Thereafter, on March 29,
2018, the bank filed a motion to dismiss pursuant to Rule 12(b)(6) of the West Virginia Rules of
Civil Procedure, arguing that petitioner’s “frivolous litigation” was preventing the completion of
the foreclosure sale to R & D, including “the recording of a ftjrustee’s [rjeport of [sjale and
[tjrustee’s fdjeed.” Pill & Pill and R & D joined in the bank’s motion to dismiss petitioner’s action.
By order entered May 17, 2018, the Circuit court dismissed the instant action. The circuit
court found petitioner’s allegations “virtually unintelligible,” but could be liberally construed as
asserting a fraud claim against GMAC Mortgage, which was not a defendant in the case. The
circuit court further found that petitioner failed to set forth his allegations of fraud with
particularity as required by Rule 9(b) of the West Virginia Rules of Civil Procedure. Therefore,
the circuit court concluded that petitioner failed to state a claim upon which relief can be granted.3
Rule 12(bX6) of the Rules of Civil Procedure provides that a defendant may file a motion
to dismiss for “fa] failure to state a claim upon which relief can be granted.” “Appellate review of
a circuit court’s order granting a motion to dismiss a complaint is de novo” SyL Ft 2, State ex ret
McGrow v. Scott Runyan Pontiac-Buick, Inc,, 194 W. Va. 770,461 S.E.2d 516 (1995). Rule 9(b)
provides that “fi]n all averments of fraud or mistake, the circumstances constituting fraud or
mistake shall be stated with particularity.” In Syllabus Point 1, in part, of Hager v. Exxon Corp
161 W. Va. 278, 241 SJE.2d 920 (1978), we held that “fraud or mistake must be alleged in the
appropriate pleading with particularity ”
On appeal, petitioner’s arguments are difficult to follow. Generally, petitioner contends
that his allegations sufficiently state a fraud claim against GMAC Mortgage, Respondents argue
that the circuit court properly dismissed petitioner’s action for a failure to state a claim upon which
relief can be granted. We agree with respondents’ position and concur with the circuit court’s
finding that GMAC Mortgage is not a defendant in this case and, even if it were, petitioner fails to
set forth his allegations of fraud with particularity. We find that, regardless of whether petitioner
is seeking an injunction, money damages, or both, the claim upon which relief is sought is not
sufficiently stated given the heightened standard for pleading fraud as required by Rule 9(b) and
Syllabus Point 1 of Hager. Id. at 278,241 S,E,2d at 921. Therefore, based on our review of the
record, we conclude that the circuit court did not err in granting respondents’ motion to dismiss
the action.
For the foregoing reasons, we affirm the circuit court’s May 17, 2018, order dismissing
petitioner’s action.
Affirmed.
complaint.
^Following the entry of the circuit court’s May 17,2018. order, petitioner states that he was
evicted from the property on June 5,2018.
3

ISSUED: September 3,2019
CONCURRED IN BY:
Chief Justice Elizabeth D. Walker
Justice Margaret L. Workman
Justice Tim Armstead
Justice Evan H, Jenkins
Justice John A. Hutchison

4

0

L,'

/si Steven Redding
Circuit Court Judge.
Ref. Code: 180GBJP4
K

r
■ :

•ij

E-FILED | 5/17/2018 10:51PM
CC-19-2017-C-201'
Jefferson County Circuit Clerk
Laura Storm .

.

In the Circuit Court of Jefferson County, West Virginia
)
)
)
)
)
)
)
)

ALEX RAHMI,
Plaintiff,
vs.)
PILL & PILL, PLLC,
Defendant

Case No. CC-19-2017-C-201

Order of Dismissal
THIS MATTER having come before the Court for hearing on May 15, 2018, on the
Motion of the Intervening Defendant, The Bank of New York Mellon Trust Company, National
Association (hereinafter “BONY Mellon”) to dismiss Plaintiffs Complaint, BONY Mellon
appearing by counsel, Christopher A. Dawson, Esq., Plaintiff, Alex Rahmi, appearing in person
and pro se, Intervening Defendant, R&D Investments, LLC (hereinafter “R&D”), appearing by
counsel, Abraham M. Ashton, Esq., and Defendant, Pill & Pill, PLLC appearing by counsel, J.
Mark Sutton, Esq., upon hearing, the Court having reviewed the record herein and being
otherwise duly and sufficiently advised;
FINDINGS OF FACT
1.

Plaintiff filed this action against Pill & Pill, PLLC on August 18, 2017, after Pill

& Pill, PLLC, as substitute trustee, on August 15, 2017, conducted a trustee sale of property
commonly known as 638 Marlowe Road, Charles Town, West Virginia 25141, pursuant to a
deed of trust held by BONY Mellon.
2.

On November 17, 2017, Plaintiff filed a Complaint for Declaratory Relief in this

same action without seeking leave from the Court to amend his original complaint, however, this
Complaint contains similar information and allegations as the original Complaint.
3.

In response to Plaintiffs filing of this action, Intervening Defendants, BONY

:
.1

J

Mellon and R&D, each sought leave from the Court to intervene in this action due to their
interests rising from being the holder of the deed of trust (BONY Mellon) and the purchaser at
the trustee’s sale (R&D).
4.

By separate Orders entered on January 31, 2018, the Court granted the

Intervening Defendants’ Motions and they were made parties to the case.
5.

On March 29, 2018, BONY Mellon filed its Motion to Dismiss Complaint on the

grounds that the Plaintiff failed to state a claim upon which relief could be granted.
6.

On April 10, 2018, R&D filed a response to the Motion to Dismiss in which it

agreed with and joined in the Motion to Dismiss.

7.

On April 11, 2018, apparently in response to the Motion to Dismiss, Plaintiff

filed an “Addition to Complaint for Declaratory Relief’ to which numerous documents of
unknown relevance to the case were attached. Many of the documents referenced matters
involving GM automobile dealerships and GM.
8. '
the

The Court held a hearing on the Motion to Dismiss on May 15, 2018, at which

Intervening Defendants restated their arguments in favor of dismissal set forth in their

pleadings filed to date and Plaintiff asserted he had a valid fraud claim against GMAC, who is
not a party to this action, arising out of matters occurring in 2012.
CONCLUSIONS OF LAW AND JUDGMENT
1.

Dismissal under Rule 12(b)(6) is appropriate if, “it appears beyond doubt that the

plaintiff can prove no set of facts in support of his claim which would entitle him to relief.
Highmark West Virginia v. Jamie, 221 W.Va. 487, 491, 655 S.E.2d 509, 513 Cmisquoting Syl.
Pt. 3, Chapman v. Kane Transfer Company, 160 W.Va. 530, 236 S.E.2d 207 (1977)).
2.

Rule 8(a)(1) merely requires, “a short plain statement of the claim showing that

pleader is entitled to relief;” however, the complaint must include sufficient information to set

out the elements of the claim or allow inferences to be drawn to support the existence of the
elements. See Fass v. Nowsco Well Service, Ltd., Ill W.Va. 50, 52, 350 S.E.2d 562, 563 (1986).
Generalizations unsupported by relevant facts and failure to state essential elements of a
plaintiff’s cause of action support dismissal under Rule 12(b)(6). Id. at 52-53, 564.
3.

Rule 9(b) requires that fraud allegations be stated with particularity so that the

party defending the fraud claim can prepare a defense. See Jamie, 221 W.Va. at 493, 655 S.E.2d
at 515. Failure to properly plead a fraud claim bars evidence of fraud at trial. Id.
4.

Plaintiffs Complaint consists of sketchy generalizations of a conclusive nature

unsupported by operative facts and, therefore, does not set forth a cause of action. In fact, the
“allegations” in Plaintiffs Complaint are virtually unintelligible. However, attempting to view
Plaintiffs Complaint in the light most favorable to him, it would appear Plaintiff demands
injunctive relief and claims fraud.
5.

In this case, Plaintiffs Complaint and.subsequent pleadings state virtually

unintelligible references to purported events that have nothing to do with this litigation, nor do
they set forth any specific allegations of fraud against the parties to this suit.
6.

Plaintiff has failed to plead the circumstances giving rise to the alleged fraud as

required by Rule 9(b); see also, Hager v. Exxon Corp., 161 W. Va. 278, 241 S.E.2d 920, 923
(1978)(“It has long been held in this jurisdiction that to establish fraud, it must be clearly alleged
and proved.”)..
7.

Accordingly, Plaintiffs Complaint fails to meet the standard for pleading fraud

as required by Rule 9(b) of the West Virginia Rules of Civil Procedure.
8.

Alternatively, Plaintiffs arguments at the hearing clarified that to the extent he

has any viable fraud claims, he believes those claims are against GMAC who is not a party to
this case, therefore, Plaintiff has failed to assert any claims for relief against parties to this case.

9.

Finally, in regard to Plaintiffs fraud claims, it is apparent that Plaintiff has

already raised these claims before the U.S. Bankruptcy Court for the Northern District of West
Virginia which rejected them when it granted BONY Mellon’s Motion for Relief from Stay by
Order entered November 24, 2015.
10.

Plaintiffs Complaint demands injunctive relief.

However, not only do the

paragraphs within the “Injunction and Appropriateness of Injunctive Relief’ section not have
anything to do with the foreclosure underlying this case, Plaintiffs Complaint also fails to meet

the consistently articulated criteria necessary for this Court to grant such relief, particularly the
“likelihood of success on the merits” prong. SeeJefferson County Bd of Educ. v. Jefferson
County Educ. Ass’n, 183 W. Va. 15, 24, 393 S.E.2d 635, 662 (1990).
11.

Because Plaintiffs likelihood of success on the merits is non-existent, this Court

must deny his request for an injunction and dismiss his Complaint.

Further, Plaintiffs

Complaint for Declaratory Relief was improper, as leave of this Court was not obtained, and it is
deficient for the same reasons set forth above regarding the original Complaint and it must also
be dismissed.
WHEREFORE, for the reasons set forth above, this Court hereby FINDS, ORDERS and
ADJUDGES that Plaintiffs initial Complaint and Complaint for Declaratory Relief are hereby
DISMISSED, WITH PREJUDICE, pursuant to Rule 12(b)(6) of the West Virginia Rules of
Civil Procedure for failure to state a claim upon which relief can be granted.
IT IS FURTHER ORDERED, that Plaintiff shall vacate the Property within ten (10)
days of the entry of this Order, leaving the same in broom clean condition and leaving all
fixtures therein intact, and this Order shall act as and be deemed a writ of possession in favor of
R&D and against Plaintiff such that if Plaintiff or any person claiming by, through or under
Plaintiff remains in, on or about the Property after said ten (10) day period, then R&D may

notify the Sheriff of Jefferson County, who is hereby authorized to and who shall forthwith
same
remove Plaintiff and any other person from the Property and shall return possession of the
to R&D. IT IS FURTHER ORDERED, that any personal property remaining in, on or about
the Property after said ten (10) day period shall be deemed abandoned, whereupon such personal
property may be disposed of by R&D in its discretion without liability to Plaintiff.
Plaintiffs objections to the rulings of the Court are noted and preserved. This is a final
and appealable Order and this case shall be removed from the Court’s active docket.
The Clerk shall provide an attested copy of this Order to the following counsel of record
who have appeared, to Plaintiff and the Sheriff of Jefferson County:
Abraham M. Ashton, Esq.
Ashton & Crawley-Woods PLLC
126 E. Burke Street
Martinsburg, West Virginia 25401
Counsel for R&D Investments

J. Mark Sutton, Esq.
Sutton & Janelle PLLC
125 E. Burke Street
Martinsburg, West Virginia 25401
Counsel for Pill & Pill

Christopher A. Dawson, Esq.
Reisenfeld & Associates, LPA LLC
3962 Red Bank Road
Cincinnati, Ohio 45227
Counsel for BONY Mellon

Mr. Alex Rahmi
638 Marlowe Road
Charles Town, West Virginia 25414
Plaintiff

Pete Dougherty, Sheriff of Jefferson County
Jefferson County Sheriff s Office
102 Industrial Blvd
Keameysville, WV 25430

This Order prepared by:
Is/ Christopher A. Dawson______
Christopher A. Dawson, Esq.
Reisenfeld & Associates LLC
Counsel for BONY Mellon
3962 Red Bank Road
Cincinnati, OH 45227
Voice: (304) 853-3338
Facsimile: (304) 853-3338
Christopher.Dawson@rslegal.com

Seen and agreed to by:
Is/ Abraham M. Ashton
Abraham M. Ashton, Esq.
Ashton & Crawley-Woods PLLC
Counsel for R&D Investments
126 E. Burke Street
Martinsburg, West Virginia 25401
Abe. Ashton@acwlawyers. com
III J. Mark Sutton
J. Mark Sutton, Esq.
Sutton & Janelie PLLC
Counsel for Pill & Pill
125 E. Burke Street
Martinsburg, West Virginia 25401
j ms@suttonandj anelle. com

Isl Steven Redding
Circuit Court Judge
23rd Judicial Circuit
Note: The electronic signature on this order can be verified using the reference code that appears in the
upper-left corner of the first page. Visit www.courtswv.gov/e-file/ for more details.

STATE OF WEST VIRGINIA
At the Supreme Court of Appeals continued and held at Charleston, Kanawha County, on
January 9,2020, the following order was made and entered in vacation:
Alex Rahmi,
Plaintiff Below, Petitioner
vs.) No. 18-0533
Pill & Pill, PLLC,
Defendant, Respondent

ORDER
The Court, having maturely considered the petition for rehearing filed by Alex Rahmi, self
represented, and the joint response filed thereto, by the respondent, Pill & Pill, PLLC, by
Christopher A. Dawson, Reisenfeld & Associates LLC, Abraham M. Ashton, The Ashton Law
Firm, and J. Mark Sutton, Sutton & Janelle, PLLC, their attorney, is of the opinion to and does
hereby refuse said petition for rehearing.

A True Copy

Attest: /s/ Edythe Nash Gaiser
Clerk of Court

